No. 19-558
In the

Supreme Court of the United States

MONTVILLE TOWNSHIP BOARD OF EDUCATION,
Petitioner,
v.
ZURICH AMERICAN INSURANCE COMPANY,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Third Circuit

BRIEF IN OPPOSITION
Lorraine M. A rmenti, Esq.
Counsel of Record
Michael E. Hrinewski, Esq.
Coughlin Duffy LLP
350 Mount Kemble Avenue
P.O. Box 1917
Morristown, New Jersey 07962
(973) 267-0058
larmenti@coughlinduffy.com
Attorneys for Respondent

292772

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Should the Supreme Court grant Certiorari as to
Montville’s Petition regarding the interpretation of state
law governing the use of extrinsic evidence in determining
an insurance company’s duty to defend its insured, which
does not address a federal question, and for which there
is no conflict between the Third Circuit, other Circuit
Courts, and the New Jersey Supreme Court?
Did the United States Court of Appeals for the Third
Circuit correctly apply established New Jersey law
regarding the use of extrinsic evidence in determining
an insurer’s duty to defend?

ii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of the Rules of the Supreme
Court of the United States, Respondent, Zurich American
Insurance Company (“Zurich”), hereby states as follows:
Zurich American Insurance Company is a wholly
owned subsidiary of Zurich Holding Company of America,
Inc., a Delaware corporation. Zurich Holding Company
of America, Inc. is wholly owned by Zurich Insurance
Company Ltd, a Swiss corporation. Zurich Insurance
Company Ltd is directly owned by Zurich Insurance
Group Ltd, a Swiss corporation. Zurich Insurance Group
Ltd is the only publicly traded parent company, with a
listing on the Swiss stock exchange, and a further trading
of American Depositary Receipts.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED  . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT  . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS TO DENY THE PETITION . . . . . . . . . . . . 9
I.

Montville’s Petition Seeks Certiorari on a
State Law Issue, Not a Federal Question . . . . . . 9

II. The Third Circuit Correctly Applied
Settled New Jersey Law, W hich Is
Not In Dispute Between The Circuit
Courts, Or Between The Third Circuit
And The New Jersey Supreme Court . . . . . . . . 12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Abouzaid v. Mansard Gardens Assocs., LLC,
207 N.J. 67 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . .5, 7
Danek v. Hommer,
28 N.J. Super. 68 (App. Div. 1953) . . . . . . . . . . . . . . . 13
DIRECTV, Inc. v. Imburgia,
136 S. Ct. 463 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Erie R.R. v. Tompkins,
304 U.S. 64 (1938) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Lucker Mfg. v. Home Ins. Co.,
818 F. Supp. 821 (E.D. Pa. 1993) . . . . . . . . . . . . . . . . 11
Reifer v. Westport Ins. Corp.,
751 F.3d 129 (3d Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 11
SL Industries v.
American Motorists Insurance Co.,
607 A.2d 1266 (1992) . . . . . . . . . . . . . . . . . . . . . . passim
State Auto Ins. Cos. v. Summy,
234 F.3d 131 (3d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 11
Volt Information Sciences, Inc. v. Board of
Trustees of Leland Stanford Junior Univ.,
489 U.S. 468, 109 S. Ct. 1248,
103 L. Ed. 2d 488 (1989) . . . . . . . . . . . . . . . . . . . . . . . 11

v
Cited Authorities
Page
Statutes and Other Authorities
Sup. Ct. R. 10  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1, 9, 10

1
INTRODUCTION
Petitioner, Montville Township Board of Education,
(“Montville”) provides no grounds upon which to support
a grant of Certiorari by this Court. As such, the Petition
should be denied. Montville concedes in its Petition that:
“[t]he issue of insurance coverage is a state law question.”
See, Montville’s Petition, Page 6. It is well established that
both the interpretation of insurance contracts is a matter
of state control. Montville’s Petition does not in any way
address a federal question.
Montville’s Petition also disregards the standard set
forth in Rule 10 of the Rules of the Supreme Court for
considerations governing review on Certiorari. Here,
the Third Circuit panel correctly cited and applied
established law on the duty to defend as held by the New
Jersey Supreme Court in SL Industries v. American
Motorists Insurance Co., 607 A.2d 1266, (1992). Further,
the Third Circuit decision in this matter is not in conflict
with the decision of another Circuit Court on the issue of
New Jersey’s duty to defend law. Additionally, the Third
Circuit decision is not in conflict with the decision of the
New Jersey Supreme Court, in fact, the Third Circuit
correctly relied upon the established New Jersey case law.
Here, the Third Circuit here properly applied settled
New Jersey law. Through this Petition, Montville seeks
to have the Supreme Court expand New Jersey law on
insurance contract interpretation, to allow extrinsic
evidence as to an insured’s denial of liability to be relied
on in determining an insurer’s duty to defend. Montville
is unhappy with the prior New Jersey Supreme Court’s
holdings, and seeks to challenge them in this forum.

2
Additionally, Montville’s Petition goes 49 incorrect steps
further, by seeking to have the Supreme Court set a
“national standard which flatly rejects the “four corners”
approach” that would apply to each state. See, Montville’s
Petition, Page 14. Montville, a New Jersey school district,
does not have standing to seek this relief, and it is not
a proper basis for Certiorari. Accordingly, the Petition
should be denied.
STATEMENT OF THE CASE
In the underlying lawsuit for which Montville seeks
coverage, Plaintiff, “Child M,” alleges that she was
sexually abused by Jason Fennes, an elementary school
teacher, while she was a student at Cedar Hill Preparatory
School in February, 2012. Montville previously employed
Fennes as an elementary school teacher between
September 1, 1998 and June 30, 2010. App.110a. Child M
alleges that Montville knew Fennes had abused minor
students at Montville, but failed to report that abuse to
the proper authorities or other potential employers of
Fennes, including Cedar Hill. App.37a, App.111a. In a
termination agreement dated May 14, 2010, Montville
agreed to limit the scope of information to be revealed
and/or communicated about Fennes and thus would not
inform any of Fennes’ prospective employers of the abuse.
App.37a, App.111a.
Child M claims that Montville’s acts and omissions
resulted in her severe personal injuries and emotional
distress at the hands of Fennes. Specifically, the Child
M Complaint alleges that Montville was “on notice” of
Fennes’ “abusive and/or sexual conduct with his infant
students,” and failed to report that conduct, causing Child
M severe personal injuries. App.123a, App.135a.

3
A merican Guarantee and Liability Insurance
Company, a wholly owned subsidiary of Zurich, issued
policy CPO 3701598-07 to Montville for the period July
1, 2011 through July 1, 2012 (the “Zurich Policy”). The
Zurich Policy contains multiple coverage parts. However,
Montville’s appeal to the Third Circuit was limited to
the Abusive Act Liability Coverage Part (“AA Coverage
Part”), which provides insurance for “’loss’ because of
‘injury’ resulting from an ‘abusive act’.” In this coverage
part, “abusive act” is defined as:
[A]ny act or series of acts of actual or threatened
abuse or molestation done to any person,
resulting in “injury” to that person, including
any act or series of acts of actual or threatened
sexual abuse or molestation done to any person,
resulting in “injury” to that person, by anyone
who causes or attempts to cause the person to
engage in a sexual act:
a. Without the consent of or by threatening
the person, placing the person in fear or
asserting undue influence over the person;
b. If that person is incapable of appraising
the nature of the conduct or is physically
incapable of declining participation in or
communicating unwillingness to engage in
the sexual act; or
c. By engaging in or attempting to engage in
lewd exposure of the body done with intent
to arouse or to satisfy the sexual desire of
any person. App.45a, App.161a.

4
The AA Coverage Part includes a “Prior Known
Acts” exclusion which states that “[t]his insurance does
not apply to … [a]ny claim or ‘suit’ based upon, arising
out of or attributable, in whole or in part, to any ‘abusive
act’ of which any insured, other than the insured actually
committing the ‘abusive act’, has knowledge prior to the
effective date of this Coverage Part ….” App.179a.
Zurich disclaimed any obligation to defend or
indemnify Montville under the Zurich Policy for the Child
M Action, based on the clear allegations of prior knowledge
by Montville of “abusive acts” by Fennes.
In three opinions, Judge Kevin McNulty of the District
Court of the United States for the District of New Jersey
affirmed Zurich’s disclaimer under both the AA Coverage
part and the Commercial General Liability (“CGL”)
Coverage Part. See, June 1, 2017 Order and Opinion,
App.57a; January 19, 2018 Order and Opinion, App.33a;
and August 21, 2018 Order and Opinion, App.19a.1
The District Court’s January 19, 2018 Opinion on
Montville’s motion seeking “reconsideration” of the
District Court’s June 1, 2017 Order granting summary
judgment for Zurich under the CGL part, contained
1. The June 1, 2017 Order and Opinion, App.57a, granted
summary judgment to Zurich under the CGL Coverage Part of the
Zurich Policy. The January 19, 2018 Order and Opinion, App.19a,
was issued in response to Montville’s purported “motion for
reconsideration,” which for the first time switched to an argument
that Montville was entitled to coverage under the Zurich Policy’s
AA Coverage Part; and the August 21, 2018 Order and Opinion,
App.19a, granted summary judgment to Zurich under the AA
Coverage Part.

5
extensive analysis of the purported “extrinsic evidence”
which Montville raises in this Petition. Specifically,
Montville contended that investigations by the New
Jersey Division of Youth and Family Services (“DYFS”)
of Fennes in 2008, 2009, and 2010 established the lack
of abusive conduct by Fennes known to Montville, such
that Zurich owed a duty to defend. Far from ignoring this
evidence, Judge McNulty undertook a review of the DYFS
investigations and held that they:
[do] not change the nature of Child M’s
allegations or the scope of the duty to defend
under the GCL Coverage Part. At best, it would
seem to be a counterweight to the evidence
of Montville’s liability. The fact remains that
Child M’s claims arise from and relate to acts
of abuse, as established in my prior Opinion, and
that Montville has not established that these
are covered risks under the GCL Coverage
Part. App.39a.
In affirming the grant of summary judgment in favor of
Zurich on the CGL Coverage Part, Judge McNulty also
affirmed the applicable law in New Jersey as to the use of
extrinsic evidence in the duty to defend analysis:
The duty to defend may arise where facts
extrinsic to the complaint in effect expand the
claim, bringing the claim within the policy’s
coverage. See Abouzaid v. Mansard Gardens
Assocs., LLC, 207 N.J. 67, 86 (2011) (where no
covered claim appeared on face of complaint,
but interrogatories revealed basis for covered
claim, duty to defend was triggered); SL Indus.

6
v. Am. Motorists Ins. Co., 128 N.J. 188, 198
(1992) (even where complaint appears to allege
no covered claim, plaintiff’s later interrogatory
responses may trigger duty to defend). That
exception is to be distinguished, however, from
the defendant insured’s (sic) simply saying that
it will prevail on the merits and thereby negate
some exclusion or limitation on coverage. That
does not change the nature of the claims being
asserted. (Emphasis Added.) App.44a.
Subsequent to Judge McNulty’s January 19, 2018
Opinion ruling in Zurich’s favor on the CGL Coverage Part
discussed above, Montville moved for summary judgment
on the AA Coverage Part. Judge McNulty’s August 21,
2018 Opinion as to the AA Coverage Part, also found in
Zurich’s favor that it had no duty to defend Montville. In
that opinion, Judge McNulty, revisited and reiterated his
prior analysis:
[the Child M] complaint rests on the theory that
Montville knew Fennes committed abusive acts
while he was a teacher at Montville. Of course,
Montville contests this, but if the insured’s
denial of liability controlled the issue, then
there might rarely if ever [not] [sic] be a duty
to defend. It is generally the nature of the
allegation that controls the insurer’s duty to
defend, and here the allegation is that Montville
knew about the prior acts of molestation upon
which its liability is premised. App.30a.
Montville filed an appeal of the August 21, 2019
decision on the AA Coverage Part to the Third Circuit.
App.88a.

7
By Opinion dated July 26, 2019, the Third Circuit
affirmed the District Court’s decision, holding that Zurich
“does not have a duty to defend the school district because
the allegations made in the other lawsuit plainly fall within
the [Prior Known Acts] exclusion provision.” App.1a. The
Third Circuit Opinion included a concise and accurate
statement of established New Jersey law on an insurer’s
duty to defend:
As a practical matter, the determination of an
insurer’s duty to defend requires review of the
complaint with liberality to ascertain whether
the insurer will be obligated to indemnify the
insured ‘if the allegations are sustained.’”
Abouzaid v. Mansard Gardens Assocs., LLC,
207 N.J. 67, 23 A.3d 338, 346 (N.J. 2011) (citation
omitted). “[I]f ‘the complaint comprehends an
injury which may be within the policy,’ a duty to
defend will be found.” Id. (citation omitted). Put
another way, “[i]f the complaint is ambiguous,
doubts should be resolved in favor of the insured
and thus in favor of coverage.” Voorhees, 607
A.2d at 1259. App.9a.
Although courts generally look to the complaint to
ascertain the duty to defend, the analysis is not necessarily
limited to the facts asserted in the complaint.” Abouzaid,
23 A.3d at 347 (citations omitted). “Thus, for example, an
insurer’s duty to provide a defense may also be triggered
by ‘facts indicating potential coverage that arise during
the resolution of the underlying dispute.’” Id. (quoting
SL Indus. v. Am. Motorists Ins. Co., 607 A.2d 1266,
1272 (N.J. 1992)). “That notion is said to align with the
expectations of insureds, who ‘expect their coverage
and defense benefits to be determined by the nature of

8
the claim against them, not by the fortuity of how the
plaintiff, a third party, chooses to phrase the complaint
against the insured.’” Id. (quoting SL Indus., 607 A.2d at
1272). That said, “the insurer has no duty to investigate
possible ramifications of the underlying suit that could
trigger coverage.” SL Indus., 607 A.2d at 1272. See,
App.9a.
The Court next referred to Montville’s
“emphatic agreement” at oral argument that “the nature
of Child M’s claims against [Montville] are generally that
[it] knew about Fennes’ . . . sexual molestation and abuse
of students while he worked for [it].” (Emphasis Added.)
See, App.17a. The Third Circuit concluded that based on
Child M’s allegations, which fall undoubtedly within the
Prior Known Acts Exclusion, Zurich is not obligated to
defend it in the Child M Action. Significantly, the Court
held that extrinsic evidence presented by Montville would
not change that outcome. App.17a.2
Accordingly, the fundamental premise of Montville’s
Petition, that the District Court and the Third Circuit’s
rulings are inconsistent with the New Jersey Supreme
Court’s holding in SL Industries, is patently incorrect.
Montville selectively quotes from, and misrepresents
the Courts’ rulings. Both Courts reviewed the “extrinsic
evidence” presented by Montville but rejected it as
irrelevant to Zurich’s duty to defend. Both Courts found
2. Further, the Third Circuit held that Montville waived its
right to argue SL Industries, and extrinsic evidence on appeal,
because it “entirely failed to raise this argument in its second
partial summary judgment motion before the District Court.”
App.10a. The Third Circuit nonetheless went on to analyze
Montville’s argument on the merits, finding that a review of the
extrinsic evidence presented would not change the outcome of the
Court’s ruling.

9
the “extrinsic evidence” to amount to nothing more than
Montville’s denial of liability to Child M. Both Courts
found that the “extrinsic evidence” did not change
the allegations made by Child M or Montville’s prior
knowledge. Accordingly, applying well established duty to
defend law in New Jersey, including SL Industries, both
Courts correctly determined that Zurich had no duty to
defend Montville under the terms of the Zurich Policy.
REASONS TO DENY THE PETITION
I.

Montville’s Petition Seeks Certiorari on a State
Law Issue, Not a Federal Question

While granting a Petition for Certiorari is subject to
the discretion of the Supreme Court, Rule 10 of the Rules
of the Supreme Court provides that a petition for a writ
of certiorari will be granted only for compelling reasons.
Rule 10 outlines the primary reasons the Court considers
relevant to grant Certiorari:
(a) a United States court of appeals has entered
a decision in conflict with the decision of another
United States court of appeals on the same
important matter; has decided an important
federal question in a way that conflicts with a
decision by a state court of last resort; or has
so far departed from the accepted and usual
course of judicial proceedings, or sanctioned
such a departure by a lower court, as to call for
an exercise of this Court’s supervisory power;
(b) a state court of last resort has decided
an important federal question in a way that

10
conflicts with the decision of another state
court of last resort or of a United States court
of appeals;
(c) a state court or a United States court of
appeals has decided an important question
of federal law that has not been, but should
be, settled by this Court, or has decided an
important federal question in a way that
conflicts with relevant decisions of this Court.
Rule 10 further provides that “certiorari is rarely granted
when the asserted error consists of erroneous factual
findings or the misapplication of a properly stated rule
of law.”
Here, Montville’s Petition relates to a state law
question, not a federal question, therefore paragraphs
(b) and (c) of Rule 10 are inapplicable. Further, there is
no dispute between the Third Circuit, another Circuit
Court, or the New Jersey Supreme Court, on the state law
question raised by Montville. Finally, the Third Circuit
properly applied an established rule of law. Accordingly,
Montville’s Petition should be denied.
Montville’s fatal concession is that: “[t]he issue
of insurance coverage is a state law question.” See,
Montville’s Petition, Page 6. Montville first concedes that
the issue upon which it seeks action by the Court – the use
of extrinsic evidence in determining an insurer’s duty to
defend – is a state law question. Yet it nonetheless seeks
Certiorari by the Supreme Court to issue a nationwide,
“uniform standard of coverage evaluation which rejects
the “four corners” rule.”

11
Even without Montville’s concession, its Petition
must be denied. Our jurisprudence leaves no doubt that
diversity jurisdiction cases lack a federal question or
interest. Reifer v. Westport Ins. Corp., 751 F.3d 129, 136
(3d Cir. 2014). State law applies to duty to defend and
policy interpretation questions. Lucker Mfg. v. Home Ins.
Co., 818 F. Supp. 821, 824 n.8 (E.D. Pa. 1993). Also, see
Erie R.R. v. Tompkins, 304 U.S. 64, (1938). In diversity
jurisdiction actions, such as the present matter, the
Court’s review of insurance coverage issues and insurance
contract interpretation is subject to applicable state law.
State Auto Ins. Cos. v. Summy, 234 F.3d 131, 131 (3d Cir.
2000) (”District courts should give serious consideration
to the fact that they do not establish state law, but are
limited to predicting it. This is especially important in
insurance coverage cases.” Id. at 135.). More broadly,
as this Court recently stated, “the interpretation of a
contract is ordinarily a matter of state law to which we
defer.” DIRECTV, Inc. v. Imburgia, 136 S. Ct. 463, 468
(2015) citing, Volt Information Sciences, Inc. v. Board of
Trustees of Leland Stanford Junior Univ., 489 U.S. 468,
474, 109 S. Ct. 1248, 103 L. Ed. 2d 488 (1989).
Montville argues that “thirty-one states allow for
exceptions to the four-corners rule in determining whether
a duty to defend exists,” and cites to State Supreme Court
cases and State Appellate Court cases. The absence of any
federal ruling by Montville is further support for Zurich’s
position that insurance law is uniquely the province of the
states. Montville’s Petition should be denied as it presents
no federal question for this Court to decide.
Montville’s request for a nationwide standard on
insurance law should also be denied. Montville states that

12
the Question Presented to the Court in the Petition is in
part, “should this Court now establish a uniform standard
of coverage evaluation which rejects the “four corners”
rule?” See, Montville’s Petition, Page i. Montville’s Petition
concludes that it seeks Certiorari to “establish a uniform
standard of coverage evaluation which rejects the “four
corners” rule.” See, Montville’s Petition, Page 14. The
interpretation of insurance policies in the respective
states is a matter inherently within the purview of State
Courts. Montville, a New Jersey public school district,
seeks to have the Court overrule the decisions of various
State Supreme and Appellate Courts, which have already
determined how each state governs an insurer’s duty to
defend analysis. Accordingly, Montville’s Petition should
be denied.
II. The Third Circuit Correctly Applied Settled New
Jersey Law, Which Is Not In Dispute Between The
Circuit Courts, Or Between The Third Circuit And
The New Jersey Supreme Court.
The relief sought by Montville is based on a
fundamental misunderstanding of well-settled law in New
Jersey and a misrepresentation of the analysis performed
by the Third Circuit and the District Court. As set forth
above, both the Third Circuit and the District Court
correctly cited to, and relied on, established New Jersey
law. The Third Circuit’s ruling is not in conflict with the
New Jersey Supreme Court; in fact it cites to and properly
applies the New Jersey Supreme Court precedent.
Further, the Third Circuit decision is not in conflict with
any other Circuit Court on the state law issue of how New
Jersey court’s use extrinsic evidence in determining an
insurer’s duty to defend. Accordingly, Montville’s Petition
should be denied.

13
First, New Jersey law is clear that it abides by the
four corners rule when determining an insurer’s duty to
defend its insured. Danek v. Hommer, 28 N.J. Super. 68, 77
(App. Div. 1953). New Jersey law is equally clear, however,
that while it abides by the four corners rule, it also allows
the use of extrinsic evidence when determining a duty to
defend, so long as that evidence changes the nature of the
claims made in the complaint. SL Industries v. American
Motorists Insurance Co., 607 A.2d 1266, 1272 (1992).
Contrary to Montville’s arguments, SL Industries did
not reject the four corners rule. The New Jersey Supreme
Court applied the four corners rule, but also allowed for
the use of permitted extrinsic evidence that changes
the nature of the allegations against the insured in the
complaint. Montville is seeking not to enforce the law in
New Jersey, but to fundamentally expand it.
Second, Montville misinterprets the underlying
Courts’ reliance on SL Industries in deciding that Zurich
has no duty to defend Montville in the Child M Action.
The record is clear that both Judge McNulty and the
Third Circuit looked to SL Industries for guidance in
determining the duty to defend issue. App.44a, App.9a.
In following the mandates of SL Industries, the District
Court and the Third Circuit found that the allegations in
the Child M complaint left no room for doubt that the Prior
Known Acts Exclusion precluded coverage to Montville.
Montville pointed to the conclusions by the New Jersey
Division of Youth and Family Services (“DYFS”) in its
investigations of Fennes in 2008, 2009, and 2010 to support
its denial of knowledge. The District Court and the Third
Circuit did not ignore the extrinsic evidence proffered by
Montville. Both Courts reviewed the extrinsic evidence
presented by Montville and ruled in Zurich’s favor because
it did nothing to change the nature of the allegations

14
against Montville. The District Court and the Third
Circuit rightfully rejected the extrinsic evidence because
it amounted to nothing more than a denial by Montville
of the allegations made by Child M. This is precisely the
point that Judge McNulty addressed when he held:
The [Child M] complaint rests on the theory
that Montville knew Fennes committed abusive
acts while he was a teacher at Montville. Of
course, Montville contests this, but if the
insured’s denial of liability controlled the issue,
then there might rarely if ever [not] [sic] be a
duty to defend. It is generally the nature of the
allegation that controls the insurer’s duty to
defend, and here the allegation is that Montville
knew about the prior acts of molestation upon
which its liability is premised. App.30a.
The Third Circuit held that “[a]lthough courts generally
look to the complaint to ascertain the duty to defend, the
analysis is not necessarily limited to the facts asserted
in the complaint.” See, App.9a.
Contrary to Montville’s argument, the Third Circuit,
and the District Court, correctly cited, and applied, well
established New Jersey law as held by the New Jersey
Supreme Court in SL Industries v. American Motorists
Insurance Co., 607 A.2d 1266, (1992), and its progeny.
While New Jersey law applies the four corners rule in
determining a duty to defend, it also allows a court to
review extrinsic evidence when determining an insurer’s
duty to defend. However, the extrinsic evidence must
change the nature of the allegations against the insured
so as to bring those allegations within the coverage of

15
the policy. Montville’s purported denial of liability as to
its knowledge of Fennes’ abuse does nothing of the sort.
Accordingly, the District Court, and the Third Circuit
correctly dismissed Montville’s argument.
In SL Industries, the case at the very foundation
of Montville’s argument, the extrinsic evidence at issue
was additional information provided by the claimant by
way of answers to interrogatories which changed the
nature of the damages claim being made by the claimant
to potentially bring it within the policies’ definitions of
personal injury and bodily injury. SL Industries, Inc., 128
N.J. at 184–185. Montville’s use of extrinsic evidence to
support its denial of liability does not change the nature of
Child M’s allegations against it. Montville’s statement that
the “Third Circuit failed to apply SL Industries correctly”
blatantly disregards the underlying Court’s rulings and
established New Jersey law. The law in New Jersey on the
duty to defend is established by the New Jersey Supreme
Court in SL Industries. The record is clear that the Third
Circuit properly applied the principles of SL Industries
in analyzing and deciding the coverage issues before it
such that there is no dispute between the Third Circuit
and the New Jersey Supreme Court.

16
CONCLUSION
The Petition for a Writ of Certiorari should be denied.
Respectfully submitted,
Lorraine M. A rmenti, Esq.
Counsel of Record
Michael E. Hrinewski, Esq.
Coughlin Duffy LLP
350 Mount Kemble Avenue
P.O. Box 1917
Morristown, New Jersey 07962
(973) 267-0058
larmenti@coughlinduffy.com
Attorneys for Respondent

